                                                                             Report No. DODIG-2014-043




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              MARCH 4, 2014




                     The Army Needs To Improve
                     Property Accountability
                     and Contractor Oversight at
                     Redistribution Property Assistance
                     Team Yards in Afghanistan




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       The Army Needs To Improve Property Accountability
                                       and Contractor Oversight at Redistribution Property
                                       Assistance Team Yards in Afghanistan


March 4, 2014                                         Findings Continued

Objective                                             As a result, the Army reported accumulated losses of $586.8 million
                                                      on 26 open Financial Liability Investigations of Property Loss reports
We determined whether Redistribution                  from May 2012 through May 2013 in retail and wholesale equipment
Property Assistance Teams (RPATs) in Bagram           at the nine RPAT yards in Afghanistan. Included in these losses were
and Kandahar, Afghanistan, have effective             weapons, weapons systems, and other sensitive equipment.
procedures in place to process equipment, to
include preparation for shipment.                     We also identified that equipment at the RPAT yards was not being
                                                      safeguarded in accordance with applicable regulations. When notified

Findings                                              of the problem, the Commander, 401st AFSB, promptly acted to fix the
                                                      identified deficiencies.
The RPATs did not have effective procedures
for processing and safeguarding retail and
wholesale equipment at the RPAT yards                 Recommendations
in Bagram and Kandahar, Afghanistan.                  Among other recommendations, we recommend that ASC, ACC-RI,
Specifically, RPAT personnel did not accurately       and the 401st AFSB update the Quality Assurance Surveillance Plan
record 6,703 of 18,036, or 37.2 percent,              and determine whether the contractor is meeting applicable
of equipment valued at $157.4 million                 requirements. We recommend the Commander, ACC-RI, initiate action
(see Appendix C) in the accountability systems        to reform poor contractor performance. Finally, we recommend the
or maintain sufficient documentation to               Commander, 401st AFSB, employ Automatic Identification Technology
support items that had been transferred from          and implement monthly reviews of the work performed by RPAT
the RPAT yards in Bagram and Kandahar.                personnel to ensure that they are fulfilling their responsibilities.

This occurred because Army Sustainment
Command (ASC), Army Contracting Command-              Management Comments and
Rock Island (ACC-RI), and the 401st Army
                                                      Our Response
Field Support Brigade (AFSB) did not properly
oversee contractor performance to ensure              Management comments from the Commander Army Sustainment
adequate establishing and transferring of             Command were responsive to the recommendations. Comments
property accountability at the RPAT yards;            from the Commander, Army Materiel Command, the Director, ACC-RI,
ASC did not provide sufficient resources              and the Commander, 401st Army Field Support Brigade partially
to the RPATs; ACC-RI did not hold the                 addressed the recommendations. Based on comments from the
contractor accountable for poor performance;          Commander, Army Materiel Command, draft Recommendations 3.a and
and the 401st AFSB did not implement                  3.b were revised, consolidated, and redirected. Therefore, we request
effective controls over equipment at the              the Commander, Army Materiel Command, the Commander, Army
RPAT yards.                                           Sustainment Command, the Director, ACC-RI, and the Commander,
                                                      401st Army Field Support Brigade provide revised comments to the
                                                      final report by April 4, 2014. Please see the Recommendations Table
Visit us on the web at www.dodig.mil
                                                      on the next page.


                                                                            (Project No. D2013-D000JB-0133.000 ) DODIG-2014-043 │ i
                   Recommendations Table
                                                                     Recommendations       No Additional
                                            Management               Requiring Comment   Comments Required
                    Commander, Army Materiel Command                                1
                    Commander, Army Sustainment Command                           3.a             2.a, 2.b
                    Director, Army Contracting Command-Rock Island                3.a                 3.b
                    Commander, 401 Army Field Support Brigade
                                       st
                                                                              4.a, 4.c                4.b

                   Please provide comments by April 4, 2014.




ii │ DODIG-2014-043 (Project No. D2013-D000JB-0133.000 )
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                    March 4, 2014

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT:	 The Army Needs To Improve Property Accountability and Contractor Oversight at the 		
	         Redistribution Property Assistance Team Yards in Afghanistan
	         (Report No. DODIG-2014-043)

We are providing this report for review and comment. The Army did not have effective procedures
for processing and safeguarding retail and wholesale equipment at the Redistribution Property
Assistance Team yards in Afghanistan.

We considered management comments on a draft of this report when preparing the final report.
DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments from
the Commander, Army Sustainment Command fully addressed the recommendation and left no
unresolved issues. Comments from the Commander, Army Materiel Command partially addressed
Recommendation 1. The Director, Army Contracting Command-Rock Island concurred with
Recommendation 3.c. However, comments on Recommendations 3.a and 3.b partially addressed
the recommendations. Based on comments from the Commander, Army Materiel Command, we
revised draft Recommendations 3.a, and 3.b and combined them into Recommendation 3.a, and
renumbered the remaining recommendations accordingly. We directed Recommendation 3.a to
the Commander, Army Sustainment Command, and the Director, Army Contracting Command-
Rock Island. Comments from the Commander, 401st Army Field Support Brigade, fully addressed
Recommendation 4.b. However, comments on Recommendations 4.a and 4.c did not address the
specifics of the recommendation. Therefore, we request additional comments from the Commander,
Army Materiel Command, the Commander, Army Sustainment Command, the Director, Army
Contracting Command-Rock Island, and the Commander, 401st Army Field Support Brigade, by
April 4, 2014.

Please send a portable document format (.pdf) file containing your comments to audrco@dodig.mil.
Copies of your comments must have the actual signature of the authorizing official for your
organization. We cannot accept the /Signed/ symbol in place of the actual signature. If you arrange
to send classified documents electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-8905
(DSN 664-8905).



	                                         Amy J. Frontz
	                                         Principal Assistant Inspector General
	                                            for Auditing
cc:
Commander, Army Materiel Command
Commander, Army Sustainment Command
Director, Army Contracting Command
Commander, 401st Army Field Support Brigade

                                                                                            DODIG-2014-043 │ iii
                  Contents
                  Introduction______________________________________________________________________________1
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________6

                  Finding. Army Needs To Improve the
                  Procedures for Processing and Safeguarding
                  Equipment at the Redistribution Property
                  Assistance Team Yards____________________________________________________________8
                  Retail Property Accountability Responsibilities ______________________________________________9
                  Personnel Need To Improve the Accountability of Retail Equipment________________________9
                  Wholesale Property Accountability Responsibilities _______________________________________ 15
                  Personnel Need To Improve Accountability of Wholesale Equipment_____________________ 15
                  The 401st Army Field Support Brigade Reported Losses of Retail
                  and Wholesale Equipment____________________________________________________________________ 18
                  Concerns With Safeguarding Sensitive Items Identified to the 401st Army
                  Field Support Brigade _________________________________________________________________________ 20
                  Conclusion______________________________________________________________________________________ 22
                  Management Comments on the Finding and Our Response________________________________ 22
                  Recommendations, Management Comments, and Our Response__________________________ 24

                  Appendixes_____________________________________________________________________________ 29
                  A. Scope and Methodology____________________________________________________________________ 29
                       Use of Computer-Processed Data_______________________________________________________ 30
                       Use of Technical Assistance_____________________________________________________________ 31
                       Prior Coverage____________________________________________________________________________ 31
                  B. Excerpt of Items Reported as Lost on a Financial Liability
                     Investigation of Property Loss_ ___________________________________________________________ 33




iv │ DODIG-2014-043
Contents (cont’d)
Appendixes (cont’d)______________________________________________________________ 29
C. Statistical Sample __________________________________________________________________________ 34
     Population________________________________________________________________________________ 34
     Sample Plan_______________________________________________________________________________ 34
     Attribute Statistical Projections and Interpretation___________________________________ 35
     Variable Statistical Projections and Interpretation____________________________________ 36

Management Comments_____________________________________________________ 37
U.S. Army Materiel Command_________________________________________________________________ 37
U.S. Army Sustainment Command____________________________________________________________ 38
U.S. Army Contracting Command_____________________________________________________________ 40
U.S. Army Contracting Command-Rock Island_______________________________________________ 41
401st Army Field Support Brigade____________________________________________________________ 50

Acronyms and Abbreviations______________________________________________ 52




                                                                                                      DODIG-2014-043 │ v
                                                                                         Introduction




Introduction
Objective
Our objective was to determine whether Redistribution Property Assistance Teams
(RPATs) in Afghanistan have effective procedures in place to process equipment, to
include preparation for shipment. See Appendix A for the scope and methodology and
prior coverage related to the objective.


Background
The overall intent of an RPAT is to eliminate all excess Army property that units have
in theater, redistribute equipment to fill shortages, and retrograde excess equipment
to the United States. RPATs are also responsible for improving property accountability
of retrograde equipment and enabling asset visibility of received equipment during
transit. Figure 1 presents an aerial view of the Bagram RPAT yard.




Figure 1. Bagram RPAT Yard




                                                                                     DODIG-2014-043 │ 1
Introduction



                 RPATs in Afghanistan
                 RPATs in Afghanistan relieve redeploying Army units of their Theater Provided
                 Equipment,1 clear their property books, and prepare Army units to redeploy to their
                 home stations. After relieving the units of accountability, the RPATs either process the
                 Theater Provided Equipment for retrograde or hold the equipment at the RPAT yards
                 for incoming troops. As of September 2013, there were nine RPATs, totaling about
                 147.62 acres, in Afghanistan. From June 2013 through August 2013, these RPATs
                 relieved units of 2,893 pieces of rolling stock and 47,186 pieces of nonrolling stock.2
                 Ultimately, all the Army Theater Provided Equipment will be processed through
                 one of the RPAT yards, with the RPATs at the Bagram and Kandahar Airfields in
                 Afghanistan handling the majority of the workload. However, 401st Army Field Support
                 Brigade (AFSB) personnel informed us that an abundance of Army equipment was
                 delivered to Afghanistan but never brought to record in any accountability system.
                 As a result, 401st AFSB personnel were unable to provide a reliable estimate of the
                 amount of equipment that would need to be retrograded through the RPAT yards
                 in Afghanistan.


                 Roles and Responsibilities for RPAT Operations in Afghanistan
                 The RPAT workforce in Afghanistan is composed of military, civilian, and contractor
                 personnel. Each workforce has specific responsibilities that influence the effectiveness
                 and efficiency of RPAT operations.


                 Military Workforce
                 The 401st AFSB, a subordinate command of Army Sustainment Command (ASC),
                 developed and operates the RPAT yards in Afghanistan. The 401st AFSB has two battalions
                 in theater that are responsible for executing the RPAT operations. The 401st AFSB
                 Commander is responsible for overseeing all facets of the RPAT yard, to include ensuring
                 that all Government property is accounted for, cared for, and secured in accordance
                 with Army regulations.


                 Civilian Workforce
                 Department of the Army civilians fill many positions at the RPAT yards. Two of the
                 most significant responsibilities are property accountability and contract oversight.

                 	1	
                     Theater Provided Equipment are items designated by the Army to remain in the Area of Responsibility for the duration
                     of the mission. All equipment received, drawn, or purchased in theater is considered Theater Provided Equipment. A
                     unit may not redeploy with these items without Army headquarters approval. The Area of Responsibility is the specific
                     geographic boundary where the combatant commanders are responsible for planning and conducting operations.
                 	2	
                     Rolling stock includes wheeled vehicles, tracked combat vehicles, wheeled/tracked construction equipment, trailers,
                     semi-trailers, and any other standard trailer-mounted equipment. Nonrolling stock encompasses all other equipment
                     that is not rolling stock.



2 │ DODIG-2014-043
                                                                                                                                          Introduction



Specifically, civilians fill all Primary Hand Receipt Holder (PHRH), Wholesale
Responsible Officer, Theater Wholesale Accountability Officer, Deputy Wholesale
Accountable Officer, and Contracting Officer’s Representative (COR) positions at the RPAT
yards in Afghanistan.

When units turn equipment into the RPAT that is scheduled for redistribution to other
units, PHRHs are responsible for inspecting, accepting, and maintaining accountability
of the equipment until the equipment is transferred from their hand receipts. While
the equipment is on their hand receipts, the PHRHs are responsible for maintaining the
proper care, custody, security, and safe keeping of the equipment. Alternately, when units
turn equipment into the RPAT that is scheduled for retrograde, Wholesale Responsible
Officers are responsible for inspecting and accepting the equipment. However, unlike a
PHRH, property accountability is not a responsibility of the Wholesale Responsible Officer.
Rather, the Theater Property Book Officer, Theater Wholesale Accountability Officer,
and Deputy Wholesale Accountable Officer assume responsibility for the equipment.

CORs are trained individuals designated and authorized in writing by the contracting
officer to perform specific technical or administrative functions on a contract. CORs
at the RPAT yards in Afghanistan are responsible for performing regular and recurring
surveillance of the contractor to ensure that the contractor’s performance complies
with the requirements of the Performance Work Statement (PWS).3 The COR submits
the results to the contracting officer who then uses the COR’s reports to identify
performance strengths and weaknesses, problem areas, or contractual failures.


Contractor Workforce
The Army Contracting Command-Rock Island (ACC-RI) has awarded three cost-plus-fixed-
fee contracts to support RPAT operations in Afghanistan. Table 1 provides additional
details on the three RPAT contracts.

Table 1. Contracts Awarded by ACC-RI To Support RPAT Operations
                                     RPAT                                                          Period of           Value
  Contract Number                                             Contract Name
                                   Function                                                      Performance         ($Million)
                                                   Integrated Logistics Support and              9/23/2010 to
 W52P1J-10-D-0097                Retail                                                                                 $150.1
                                                   Services (ILSS)                               9/22/2013
                                                   Integrated Logistics Support and              6/24/2013 to
 W52P1J-12-C-0077                Retail                                                                                 $180.1
                                                   Services-2 (ILSS-2)                           6/23/2016
                                                   Field and Installation Readiness              1/28/2010 to
 W911SE-07-D-0004                Wholesale                                                                            $1,037.6
                                                   Support Team (FIRST)                          1/27/2015


	3	
      Federal Acquisition Regulation Subpart 37.6, “Performance-Based Acquisition,” states that performance-based contracts
      are to include a PWS, which is a statement of work that describes the required results in clear, specific, and objective terms
      with measurable outcomes.



                                                                                                                                       DODIG-2014-043 │ 3
Introduction



                 The Integrated Logistics Support and Services and ILSS-2 contracts were designed to
                 assist the 401st AFSB with property accountability, resource management, and security
                 of retail equipment at the RPAT yard. The FIRST contract requires that the contractor
                 provide property accountability, visibility, and management of wholesale equipment at
                 the RPAT yard.

                 In August 2011, the Defense Contract Management Agency (DCMA) accepted specific
                 contract administration responsibilities from ACC-RI, to include ensuring that
                 Government property in the custody of contractors was accounted for, controlled,
                 protected, preserved, and maintained in accordance with regulatory and contractual
                 requirements. DCMA also was responsible for determining whether the contractor was
                 in compliance with contractual quality assurance requirements.


                 RPAT Process
                 Using either a lateral transfer or a wholesale transfer, RPATs relieve units of
                 accountability.   When units enter the RPAT yard, the units maintain equipment
                 accountability in the Property Book Unit Supply Enhanced (PBUSE) system, the Army’s
                 unit-level accountability system. Retail equipment is Army equipment maintained and
                 recorded in the PBUSE system. A lateral transfer is when equipment is transferred
                 via PBUSE from the unit to a PHRH. The alternative, a wholesale transfer, requires a
                 transfer of equipment from the unit’s hand receipt to the Army’s hand receipt in the
                 Logistics Modernization Program (LMP), the wholesale accountability system. For the
                 Army to appropriately account for its equipment, RPAT personnel should accurately
                 record the items in either PBUSE or LMP.


                 Lateral Transfer (Retail to Retail)
                 Working in conjunction with ILSS contractors, redeploying units prepare a
                 DA Form 3161, “Request for Issue or Turn In,” for each piece of equipment that the
                 redeploying units are turning into the RPAT. At the RPAT yard, the unit, an ILSS contractor,
                 and the accepting PHRH perform a joint inspection to ensure that the information
                 on the DA Form 3161 is accurate. The PHRH then signs the DA Form 3161, which
                 initiates a lateral transfer of accountability from the unit to the PHRH. Once the PHRH
                 signs the DA Form 3161, ILSS contractors transfer the equipment from the unit’s
                 property book to the PHRH’s hand receipt in PBUSE. PHRHs at different RPAT yards can
                 also conduct lateral transfers. For example, a PHRH at the Bagram RPAT can laterally
                 transfer equipment to a PHRH at the Kandahar RPAT. The primary purpose for lateral
                 transfers at the RPAT yard is for equipment held for transfer to units deploying into
                 Afghanistan. See Figure 2 for an illustration of the retail transfer process.




4 │ DODIG-2014-043
                                                                                          Introduction



Wholesale Transfer (Retail to Wholesale)
With assistance from ILSS contractors, redeploying units prepare DD Form 1348-1A,
“Issue/Release Document,” for each piece of equipment to be turned into the RPAT.
At the RPAT yard, the unit and RPAT personnel perform a joint inspection to ensure
that the DD Form 1348-1A is accurate. The Wholesale Responsible Officer then signs
the DD Form 1348-1A, which initiates a transfer of accountability from the unit to the
Army. Once the documents have been signed, ILSS contractors remove the equipment
from the unit’s property book in PBUSE, which relieves the unit of accountability. On
confirmation that the equipment has been removed from PBUSE, FIRST contractors
upload the equipment into the Army War Reserve Deployment System, a wholesale
visibility system used to update LMP records. The primary purpose of wholesale
transfers at the RPAT yard is for retrograding that equipment. See Figure 2 for an
illustration of the wholesale transfer process.

Figure 2. RPAT Process for Performing Lateral and Wholesale Transfers


                        Lateral Transfer (Retail to Retail)
                                                                    Current PHRH
                                                                       maintains
          The PHRH signs               ILSS contractors            accountability of
           DA Form 3161                    transfer                equipment until
           which relieves              equipment onto                tranferred to
         unit of equipment            the PHRH’s hand               deploying unit
          accountability.             receipt in PBUSE.

                                                                   Current PHRH
    The unit enters                                                  transfers
  the RPAT and RPAT                                              accountability to a
  personnel perform                                              PHRH at a different
   a joint inspection                                                  RPAT.
  of the equipment.


                        Wholesale Transfer (Retail to Wholesale)

             The WRO signs                                        FIRST contractors
            DD Form 1348-1A               ILSS contractors        upload equipment
              which relieves            remove equipment             into AWRDS,
            unit of equipment               from PBUSE.             which updates
             accountability.                                       accountability in
                                                                    LMP records.



                                                                                       DODIG-2014-043 │ 5
Introduction



                 Accountability and Oversight Requirements and
                 Responsibilities
                 Army Regulation 710-2, “Inventory Management, Supply Below the National Level,”
                 March 28, 2008, prescribes that all property acquired by the Army, regardless of
                 source, needs to be accounted for, and that all nonexpendable items are required to be
                 accounted for on a formal property book. Additionally, Army Regulation 735-5, “Property
                 Accountability, Policies and Procedures for Property Accountability,” May 30, 2013, states
                 that property accountability must be continuous from the time of acquisition to the
                 ultimate consumption or disposal of the property.


                 Financial Liability Investigation of Property Loss
                 The Army uses a financial liability investigation of property loss (FLIPL) to account
                 for lost, damaged, or destroyed Government property.                                       If equipment is lost, the
                 Army documents the circumstances concerning the loss or damage of Government
                 property and adjusts the property from the accountable records. The initiator then
                 provides the DD Form 200 to the approving authority, who must be the first general
                 officer in the rating chain when Controlled Inventory Items (CIIs)4 are lost or when the
                 losses are greater than $100,000.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating as
                 intended and to evaluate the efficiency and effectiveness of controls. We determined
                 that internal controls were not effective to provide reasonable assurance that retail
                 equipment was being effectively processed and safeguarded at the Bagram and
                 Kandahar RPAT yards. Specifically, ASC did not provide adequate resources to support
                 the PHRHs; ACC-RI did not hold the contractor accountable for maintaining property
                 accountability and visibility; ASC, ACC-RI, and the 401st AFSB did not properly
                 oversee the performance of the ILSS contractors; and, RPAT personnel did not use
                 automated procedures to maintain retail equipment accountability.




                 	4	
                       Army Regulation 735-5 defines CIIs as those items designated as having characteristics requiring they be identified,
                       accounted for, secured, segregated, or handled in a special manner to ensure their safekeeping and integrity. CIIs are
                       categorized as classified, sensitive, or pilferable, depending on the degree of control required.




6 │ DODIG-2014-043
                                                                                           Introduction



We also determined that internal controls were not adequate to provide reasonable
assurance that wholesale equipment was being effectively processed at the RPAT yards.
Specifically, ACC-RI did not take appropriate action to ensure that the FIRST contractor
maintained appropriate care, custody, security, and safekeeping of wholesale equipment,
and the 401st AFSB did not implement effective controls over wholesale equipment.
We will provide a copy of this report to senior officials at ASC, ACC-RI, and 401st AFSB
who are responsible for internal controls.




                                                                                       DODIG-2014-043 │ 7
Finding




                 Finding
                 Army Needs To Improve the Procedures for Processing
                 and Safeguarding Equipment at the Redistribution
                 Property Assistance Team Yards

                 ASC, ACC-RI, and the 401st AFSB did not have effective procedures for processing and
                 safeguarding equipment at the RPAT yards in Bagram and Kandahar, Afghanistan.
                 Specifically, RPAT personnel did not accurately record 6,703 of 18,036, or 37.2 percent,
                 of equipment valued at $157.4 million (see Appendix C) in the accountability systems
                 or maintain sufficient documentation to support items that had been transferred from
                 the RPAT yards in Bagram and Kandahar.

                 The deficiencies associated with retail property accountability occurred because:

                         •	 ASC did not provide sufficient resources to support the PHRHs responsible
                            for maintaining accountability, custody, security, and safekeeping of all
                            Government property on their hand receipts,

                         •	 ACC-RI and ASC officials did not administer the ILSS contract to maintain
                            property accountability and visibility,

                         •	 ASC, ACC-RI, and the 401st AFSB did not properly oversee contractor
                            performance to ensure retail property accountability was being adequately
                            established and transferred, and

                         •	 The 401st AFSB did not use automated procedures to maintain retail
                            equipment accountability.

                 The deficiencies associated with wholesale property accountability occurred because:

                         •	 ACC-RI, despite 220 Corrective Action Requests (CARs) that detailed
                            instances where the contractor did not comply with the Performance Work
                            Statement, did not take sufficient action to ensure the contractor maintained
                            the appropriate care, custody, security, and safekeeping of wholesale
                            equipment, and

                         •	 The 401st AFSB did not implement effective controls over wholesale
                            equipment at the RPAT yards in Afghanistan.




8 │ DODIG-2014-043
                                                                                                                                 Finding



As a result, the Army reported accumulated losses of $586.8 million on 26 open
FLIPL reports from May 2012 through May 2013 in retail and wholesale equipment at
the nine RPAT yards in Afghanistan. Included in these losses are weapons, weapons
systems, and other sensitive equipment.

We also identified that equipment at the RPAT yards was not being safeguarded in
accordance with applicable regulations. When notified of the problem, the Commander,
401st AFSB, promptly acted to fix the identified deficiencies.


Retail Property Accountability Responsibilities
Retail property accountability at the RPAT yard is the responsibility of the PHRHs, with
assistance from ILSS contractors. ILSS contractors are responsible for conducting the
joint inventories of equipment entering the RPAT, ensuring the documentation used
to transfer the equipment (DA Form 3161 or DD Form 1348) is accurate, and once the
appropriate documentation has been signed, updating the PBUSE system to accurately
reflect the transfer of equipment to the accepting PHRH.

The PHRH is responsible for the joint inventory and signing the transfer documentation,
which initiates the transfer of equipment to the PHRH’s hand receipt. Once equipment
is on a PHRH’s hand receipt, the PHRH is responsible for maintaining the proper care,
custody, security, and safe keeping of that equipment until the equipment is transferred
to another retail hand receipt or to wholesale.


Personnel Need To Improve the Accountability of
Retail Equipment
RPAT personnel did not have effective procedures for processing and safeguarding
retail equipment at the RPAT yards. Based on book-to-floor testing, we were unable to
locate retail equipment valued at $116.5 million in Bagram and Kandahar RPATs. This
attributes to 4,437 pieces of equipment out of 11,153, or 39.8 percent, of nonrolling stock
and 243 pieces of equipment out of 775, or 31.4 percent, of rolling stock in April 2013.
(See Appendix C.)

Of the 138 nonrolling stock items we nonstatistically selected for floor-to-book
testing,5 RPAT personnel were unable to show that 49 of the items were accurately
recorded in PBUSE. Of the 60 rolling stock items we selected for floor-to-book testing,


	5	
      For floor-to-book testing, we selected items from the Bagram and Kandahar RPAT yards and determined whether the
      equipment was accurately recorded in the applicable accountability system.




                                                                                                                        DODIG-2014-043 │ 9
Finding



                 RPAT personnel were unable to show that 14 of the items were accurately recorded in
                 PBUSE.        For the items that were not accurately recorded in PBUSE, we identified
                 items that were listed in PBUSE on the hand receipt of a PHRH at a different RPAT yard,
                 items that had documentation to transfer them to wholesale (DD Form 1348) yet were
                 still located with the retail items in the storage facilities, items that were not recorded
                 in any accountability system, and items that were being reported by the 401st AFSB
                 on an existing FLIPL as lost. Table 2 illustrates the floor-to-book testing we performed
                 on retail equipment.

                 Table 2. Floor-to-Book Testing of Retail Equipment
                                                                                     Number of Items For
                             Equipment Type              Number of Items Tested      Which RPAT Personnel
                                                                                      Could Not Account
                      Nonrolling Stock                             138                        49
                      Rolling Stock                                60                         14


                 The deficiencies we identified in the processing and safeguarding of retail equipment
                 at the RPAT yards occurred because ASC, ACC-RI, and the 401st AFSB did not take
                 appropriate action to address problems faced by the RPATs in Afghanistan. Specifically,
                 despite written reports advising of ongoing property accountability problems at the
                 RPAT yards:

                               •	 ASC did not provide adequate resources to support the retail PHRHs who
                                  are responsible for maintaining accountability, custody, security, and
                                  safekeeping of all Government property on their hand receipts.

                               •	 ACC-RI did not hold the contractor accountable for maintaining property
                                  accountability and visibility.

                               •	 ASC, ACC-RI, and the 401st AFSB did not properly oversee the performance
                                  of ILSS contractors to ensure that retail property accountability was being
                                  adequately established and transferred at the RPAT yards.

                               •	 401st AFSB did not ensure that RPAT personnel were using automated
                                  procedures to maintain retail equipment accountability.




10 │ DODIG-2014-043
                                                                                                    Finding



ASC Could Improve Retail Property Accountability by Providing
Additional Resources To Assist the PHRHs
ASC did not take appropriate action to adequately resource
PHRHs     overwhelmed      with    property     accountability              ASC
responsibilities at the RPAT yards. On three occasions, from           did not take
November 2011 through May 2012, ASC reported serious                   appropriate
                                                                  action to adequately
property accountability problems at the RPAT yards in              resource PHRHs . . .
Afghanistan to the contracting officer, ASC personnel, and             at the RPAT
401st AFSB personnel. In November 2011, ASC issued a                       yards.
memorandum to the contracting officer that outlined serious
retail property accountability problems at the RPAT yards and
recommended that the ILSS contractors take over PHRH responsibilities. In April 2012,
5 months after the ASC recommendation, the ILSS contracting officer submitted a
formal request for a legal opinion on whether ILSS contractors could perform PHRH
responsibilities. The ASC General Counsel concluded that the request would violate
10 United States Code (Section 2463), which prohibits contracting out work that
Federal civilians are performing. After the legal ruling that ACC-RI could not modify the
contract, ASC took no further action to improve property accountability. Specifically,
ASC could have provided additional civilian or military resources to assist PHRHs
with maintaining accountability of large hand receipts, but ASC did not take any
further action.

As of April 2013, eight PHRHs had individual hand receipts with more than 1,000 items,
including two hand receipts that each contained more than 8,000 items. Additionally,
seven of the PHRHs had hand receipts with equipment valued at more than $80 million
each, including one hand receipt in excess of $314 million. Hand receipts of this
volume and value make maintaining property accountability difficult for one individual,
especially in an environment as fluid as the RPAT. As a result, and as ASC has identified
on three occasions, PHRHs have been unable to maintain accountability of retail
equipment at the RPAT yards in Afghanistan, resulting in the loss of equipment and
unreliable property accountability records.     ASC should conduct a review of the
401 AFSB personnel levels to determine whether PHRHs need additional resources
    st


to fulfill their responsibilities of maintaining the proper care, custody, security, and
safekeeping of retail equipment on their hand receipts.




                                                                                          DODIG-2014-043 │ 11
Finding



                 Regular and Recurring Inventories Would Improve the
                 Accountability and Visibility of Retail Equipment
                 ACC-RI and ASC officials did not properly administer the ILSS contract for maintaining
                 property accountability and visibility of retail equipment. Specifically, PWS section 3.1.1
                 requires ILSS contractors to maintain 100-percent property accountability and visibility
                 at all times for retail equipment. Moreover, PWS section 3.1.1 requires the contractor
                 to maintain accountability in PBUSE and perform inventories. However, the ACC-RI
                 contracting officer and an ASC official stated that the contractor was responsible only
                 for accurate and timely accountability in PBUSE and that the contractor had no other
                 responsibilities for the equipment once the equipment was transferred into the RPAT.
                 Unless the contractor conducts regular and recurring inventories of the retail
                 equipment at the RPAT yard, personnel do not know how accurate the data in the
                 PBUSE system are for equipment on-hand. The Commander, ASC should define the
                 frequency of the cyclic inventories of retail equipment at the RPAT yards to be performed
                 by the ILSS-2 contractor to maintain 100-percent accountability and visibility of retail
                 equipment, as required by the contract. Additionally, the contracting officer should
                 modify the contract to address the required frequency of inventory, and verify that the
                 required inventory frequency is followed.

                 Additionally, despite written notification in November 2011
                 that property accountability controls were inadequate and                 ILSS-2
                 that ILSS needed modifications to better assist the PHRHs,             authorized
                                                                                      38-percent less
                 the ASC Acquisition Strategy Review Panel approved ILSS-2           manpower and cost
                 contract requirements. Nearly identical to the requirements          20 percent more
                 of the original ILSS contract, the requirements of ILSS-2               than ILSS.
                 state that the contracting officer may direct the contractor to
                 perform inventories. Other than that requirement, most of the
                 requirements in ILSS 2 match ILSS, yet ILSS 2 authorized 38-percent less manpower
                 and cost 20 percent more than ILSS. Although the ILSS-2 period of performance did
                 not begin until June 24, 2013, ASC and ACC-RI personnel informed us on June 3, 2013,
                 that they were already considering modifying the contract to increase the authorized
                 manpower and address previously identified deficiencies at the RPAT yards, which will
                 further increase costs.


                 Oversight of the ILSS Contractor Performance Was
                 Not Effective
                 ASC, ACC-RI, and the 401st AFSB did not conduct adequate oversight of the ILSS
                 contract.   Federal Acquisition Regulation, Subpart 1.602-2, “Career Development,



12 │ DODIG-2014-043
                                                                                                                                            Finding



Contracting Authority, and Responsibilities,” states that contracting officers are
responsible for ensuring performance of all necessary actions for effective contracting,
ensuring compliance with the terms of the contract, and safeguarding the interests
of the United States in its contractual relationships. To fulfill this responsibility, the
Defense Federal Acquisition Regulation Supplement states that the contracting officer
should prepare a quality assurance surveillance plan (QASP).6 The contracting officer
often delegates specific authority to members of the requiring activity to conduct
contract surveillance to verify that the contractor is fulfilling contract delivery and
quality requirements.

For the ILSS contract, the contracting officer instructed                                            The
                                                                                                  QASP used
the requiring activity, ASC, to update the QASP as
                                                                                              by the CORs until
necessary. However, the ASC did not update the QASP                                          at least April 2013
in a timely manner. The QASP used by the CORs until                                       had not been updated to
at least April 2013 had not been updated to accurately                                     accurately reflect the
                                                                                            changes made to the
reflect changes made to the PWS in December 2011. As                                         PWS in December
a result, the QASP did not enable the CORs to adequately                                            2011.
monitor the performance metrics in the PWS.

The ILSS PWS required the contractor to ensure 100-percent property accountability
of Theater Provided Equipment in PBUSE and to complete lateral transfers using a
DA Form 3161. However, the QASP did not contain any surveillance steps to identify
these deficiencies.              Specifically, we identified retail equipment transfers without
the required DA Forms 3161 or the proper updates in PBUSE and equipment at the
RPAT yards that the ILSS contractors had not entered into PBUSE. In one instance, we
identified that a $1.5 million vehicle reported in PBUSE on a Bagram hand receipt was
not located at the Bagram RPAT. RPAT personnel in Bagram stated that the item had
recently been inventoried at the Kandahar RPAT yard, but Bagram RPAT personnel
did not have the necessary documentation to verify the transfer.                                            We contacted
RPAT personnel in Kandahar to confirm the status of the vehicle and were informed that
the vehicle was not at the Kandahar RPAT yard either, indicating that RPAT personnel
had lost complete control of the vehicle. The ILSS QASP would not have identified
this loss.

Furthermore, an ASC official informed us that the 401st AFSB CORs were not
consistently submitting monthly COR reports and that he had never received the COR

	6	
      The QASP is a checklist used by Contracting Officer’s Representatives (CORs) to perform monthly surveillance of
      contractor performance. The QASP is directly tied to the performance metrics in the PWS to ensure that the Government
      receives the quality of services called for in the contract and that the Government pays only for the acceptable level of
      services received.




                                                                                                                                  DODIG-2014-043 │ 13
Finding



                 reports from all the CORs in any given month. ASC is responsible for ensuring COR
                 reports, including QASP results, are received each month and for taking appropriate
                 action if COR reports are not received. Once the monthly COR reports are received, the
                 contracting officer and ASC personnel participate in a monthly review of the COR reports.
                 ASC personnel and the ACC-RI contracting officer assigned to ILSS are all located in
                 Rock Island, Illinois. As a result, the information on the COR reports is critical to the
                 contracting officer’s assessment of ILSS contractor performance. ASC, ACC-RI, and
                 the 401st AFSB all have a fiduciary responsibility to be stewards of DoD funds and to
                 continually validate that the contractor is in compliance with contract requirements.
                 ASC, ACC-RI, and the 401st AFSB should update the QASP to accurately measure whether
                 the contractor is meeting the performance metrics in the PWS.           Additionally, the
                 Commander, 401 AFSB, should determine whether the CORs are completing and
                                     st


                 submitting their reports to ASC each month and take administrative action if CORs are
                 not fulfilling their duties.


                 Automatic Identification Technology Would Improve the
                 Accountability and Visibility of Retail Equipment
                 The 401st AFSB did not have an automated system for tracking the location and status of
                 retail equipment at the RPAT yards. Both Army Regulation 710-2 and Army Regulation
                 735-5 state that when accounting for property, the management and accountability must
                 include automatic identification technologies, such as bar codes and radio-frequency
                 identification tags. Additionally, the 401st AFSB Internal Standard Operating Procedures,
                 “Property Accountability,” February 22, 2013, (Internal Standard Operating Procedures)
                 requires retail equipment to be labeled with PBUSE automatic identification technology
                 bar code labels and for inventories to be performed daily using PBUSE automatic
                 identification scanners.

                 Personnel at the 401st AFSB stated that they had automatic identification technology
                 capability at the RPAT yards but were not using the technology because equipment was
                 not intended to remain on the retail side. Specifically, 401st AFSB personnel informed
                 us that RPAT operations were intended to be retrograde-oriented, with equipment
                 promptly transferred to wholesale, whereas FIRST contractors are required to scan
                 equipment daily. However, equipment is not always transferred to wholesale in a timely
                 manner. As a result, the RPATs have accumulated 11,928 items on the retail side while
                 maintaining only 6,108 items on the wholesale side. Employing automatic identification
                 technology on retail equipment would provide the capability to track, document, and
                 control materiel. To maintain better visibility of all retail equipment at the RPAT yards,
                 the Commander, 401st AFSB, should employ automatic identification technology for all
                 retail equipment.


14 │ DODIG-2014-043
                                                                                                  Finding



Wholesale Property Accountability Responsibilities
Wholesale property accountability at the RPAT yards is a shared responsibility between
401st AFSB personnel and FIRST contractors. After the Wholesale Responsible Officer
signs the transfer document (DD Form 1348), FIRST contractors are responsible for
receiving, inventorying, and maintaining property accountability and asset visibility of
wholesale equipment. Additionally, FIRST contractors are responsible for preparing the
equipment for onsite storage and retrograde movement by vehicle transporter or aircraft.

Unlike the PHRH, the Wholesale Responsible Officer does not accept responsibility for the
items for which he or she signs. According to the Internal Standard Operating Procedures,
the Theater Property Book Officer, Theater Wholesale Accountability Officer, and Deputy
Wholesale Accountability Officer assume responsibility for the equipment.


Personnel Need To Improve Accountability of
Wholesale Equipment
RPAT personnel did not have effective procedures for processing and safeguarding
wholesale equipment at the RPAT yards. Based on book-to-floor testing, we were
unable to locate wholesale equipment valued at $40.8 million in Bagram and Kandahar
RPATs. This attributes to 2,012 pieces of equipment out of 5,298, or 38.0 percent, of
nonrolling stock, and 11 pieces of equipment out of 810, or 1.4 percent, of rolling stock
in April 2013 (see Appendix C).

Of the 79 nonrolling stock items we nonstatistically selected for floor-to-book testing,
RPAT personnel were unable to show that 45 of the items were accurately recorded in
LMP. Of the 60 rolling stock items we selected for floor-to-book testing, RPAT personnel
were unable to show that 34 of the items were accurately recorded in LMP. FIRST
contractors stated that four of the items were recorded in PBUSE. However, ILSS
contractors confirmed that the items were not in PBUSE. Therefore, the items were not
recorded in any accountability system. Table 3 illustrates the floor-to-book testing we
performed on wholesale equipment.

Table 3. Floor-to-Book Testing of Wholesale Equipment
                                                                Number of Items For
        Equipment Type            Number of Items Tested        Which RPAT Personnel
                                                                 Could Not Account
 Nonrolling Stock                           79                           45
 Rolling Stock                              60                           34




                                                                                        DODIG-2014-043 │ 15
Finding



                 The deficiencies we identified in the processing and safeguarding of retail equipment
                 at the RPAT yards occurred because:

                              •	 ACC-RI did not take sufficient action to address poor contractor performance
                                  for maintaining property accountability, and

                              •	 401st AFSB personnel did not implement effective controls over wholesale
                                  equipment at the RPAT yards in Afghanistan.

                 ACC-RI Should Hold the Contractor Accountable
                 ACC-RI did not take necessary action to hold the FIRST contractor accountable for
                 performance deficiencies. From September 2011 through May 2013, DCMA issued
                 220 CARs7 to FIRST contractors, which demonstrated that the contractor was not
                 fulfilling its contractual responsibilities. The CARs detailed, among other functional
                 areas, the FIRST contractor’s noncompliance in maintaining, property accountability,
                 qualifications and training of staff, security and safety, and quality control.

                 Several of the CARs issued by DCMA identified pervasive
                 deficiencies that the FIRST contractor did not address.                                           After
                                                                                                               accessing the
                 In June 2012, DCMA issued a CAR that identified                                            sensitive container,
                 that the reconciliation rate, based on an Army War                                       the Quality Assurance
                 Reserve Deployment System to LMP reconciliation,                                          Representative and
                                                                                                         COR located nine FIRST
                 was at 89 percent, below the 95 percent rate
                                                                                                      contractors and determined
                 required by the PWS. Another CAR was issued                                           that one was playing cards
                 to the FIRST contractors after a DCMA Quality                                             while the other eight
                 Assurance Representative and a COR entered the                                               were sleeping.
                 RPAT facility and found a container with sensitive items
                 that was not properly secured. The CAR stated that the
                 Quality Assurance Representative and COR entered the container and were not
                 challenged by any FIRST contractors.                          After accessing the sensitive container, the
                 Quality Assurance Representative and COR located nine FIRST contractors and
                 determined that one was playing cards while the other eight were sleeping. Because
                 these CARs and many other CARs were repetitive deficiencies that the FIRST contractor
                 did not address, DCMA issued two Level III CARs8 in October 2012 and December 2012.
                 In June 2013, 12 months after the initial CAR identifying deficiencies in the

                 	7	
                     DCMA issues CARs to request a corrective action when DCMA personnel independently identify contractual
                     noncompliances.
                 	8	
                     Level III CARs are issued by DCMA to call attention to a serious noncompliance, a significant deficiency, a failure to respond
                     to a lower level CAR, or to remedy recurring noncompliance. A Level III CAR allows initiation of available contractual
                     remedies.




16 │ DODIG-2014-043
                                                                                                   Finding



FIRST contractor’s reconciliation rate was issued and 8 months after DCMA’s
first Level III CAR, we identified a $150.3 million variance between the wholesale
equipment recorded in the Army War Reserve Deployment System and the equipment
recorded in LMP.

The ACC-RI contracting officer is responsible for taking the necessary action to
verify the contractor complies with the terms of the contract.         Despite repeated
warnings from DCMA that the FIRST contractors were not satisfying their contractual
obligations, the contracting officer took no action to reform the FIRST contractor’s
performance. Instead, the contracting officer continued to exercise option years in
January 2011, January 2012, and January 2013. DCMA personnel indicated that the
FIRST contractor performed too many services on the bases in Afghanistan to be
removed from the contract. Regardless, the FIRST contractor’s noncompliance with
the PWS has led to deficiencies in the processing and safeguarding of wholesale
equipment, resulting in the loss of wholesale equipment. The Director, ACC-RI, should
establish controls to verify that the contracting officer is initiating action on all CARs
issued to the contractor and, as appropriate, initiating action to remedy identified
performance deficiencies.


401st AFSB Personnel Must Improve Property Accountability
Controls at the RPAT Yards
The 401st AFSB did not implement effective controls over wholesale equipment at
the RPAT yards in Afghanistan. Personnel at the 401st AFSB have the responsibility to
ensure wholesale equipment at the RPAT yards is adequately processed and accurately
recorded in LMP. Specifically, the:

         •	 Theater Property Book Officers are responsible for establishing procedures
           for property accountability throughout the area of responsibility,

         •	 Theater Wholesale Accountability Officers are responsible for ensuring
           wholesale equipment is processed correctly and reconciled in LMP, and

         •	 Deputy Wholesale Accountable Officers assist with the accountability of
           wholesale equipment.

However, because property accountability controls at the RPAT yards were ineffective,
data reported in LMP were unreliable (including a $150.3 million variance between
the wholesale equipment recorded in the Army War Reserve Deployment System and




                                                                                         DODIG-2014-043 │ 17
Finding



                 the equipment recorded in LMP). The 401st AFSB did not
                 recognize the deficiencies in LMP in a timely manner because                In
                                                                                         April 2013,
                 RPAT personnel did not conduct regular and recurring                  the 401st AFSB
                 inventories of wholesale equipment.         Specifically, in        completed its first
                 April 2013, the 401st AFSB completed its first inventory          inventory of wholesale
                                                                                    equipment since the
                 of wholesale equipment since the RPAT’s inception in
                                                                                      RPAT’s inception
                 2008. As a result, the equipment identified as lost during               in 2008.
                 the inventory could have been missing and unidentified for
                 several years.

                 Army Regulation 710-2 addresses the inventory requirements for retail equipment
                 in theater but does not contain any inventory requirements that are applicable to
                 wholesale operations at the RPAT yards. To ensure that controls are effective for
                 processing and safeguarding wholesale equipment and that accountability has been
                 established for the equipment, the Commander, Army Materiel Command, should revise
                 the Operation Enduring Freedom-Theater Property Book Office Standard Operating
                 Procedures to establish inventory requirements for wholesale equipment at the
                 RPAT yards. The requirements should implement regular and recurring inventories
                 and should, at a minimum, require inventories at the rotation of accountable officers.
                 Additionally, the Commander, 401st AFSB, should implement monthly reviews of the
                 work performed by RPAT personnel who are responsible for wholesale property
                 accountability to assess whether RPAT personnel are fulfilling their responsibilities.


                 The 401st AFSB Reported Losses of Retail and
                 Wholesale Equipment
                 As a result of poor controls over property accountability at the RPAT yards in
                 Afghanistan, the 401st AFSB has lost control of retail and wholesale equipment at the
                 RPAT yards in Afghanistan. All equipment is required to be inventoried before being
                 accepted into the RPAT. Therefore, one can definitively assign responsibility to the
                 RPAT for the losses reported at the RPAT yards in Afghanistan. Between May 2012 and
                 May 2013, the 401st AFSB opened 71 FLIPL investigations to examine property losses at
                 the RPAT yards. Of the 71 FLIPL investigations, 45 were closed and 26 remained open.
                 The values of the closed FLIPLs were not provided in all cases, but the total value of retail
                 and wholesale losses on the 26 open FLIPLs was about $586.8 million ($363.2 million in
                 losses of retail equipment and $223.6 million in losses of wholesale equipment). These
                 equipment losses include weapons, weapons systems, and other sensitive equipment.
                 (For an excerpt of missing items from one of the FLIPLs, see Appendix B.) However,




18 │ DODIG-2014-043
                                                                                                    Finding



because property accountability records were unreliable, the 401st AFSB does not have a
true representation of the equipment that is at the RPAT yards in Afghanistan. Our testing
of retail and wholesale equipment at the RPAT yards, identified equipment that was:

         •	 potentially lost yet still being recorded in the accountability system as being
            at the RPAT yards,

         •	 physically present at the RPAT yards despite being recorded on a FLIPL as
            lost, and

         •	 physically present at the RPAT yards despite not being reported in any
            accountability system.

The accountability systems used at the RPATs do not offer a reliable reflection of the
equipment that the Army has on hand. Until corrective actions are implemented and
property accountability is restored at the RPATs, the Army will not know the exact amount
of equipment that has been lost at the RPATs. Additionally, until the property records are
reliable, the RPAT environment will remain conducive to property loss, including CIIs.
Figure 3 presents an aerial view of the Bagram RPAT yard.




Figure 3. Bagram RPAT Yard




                                                                                          DODIG-2014-043 │ 19
Finding



                 Concerns With Safeguarding Sensitive Items Identified
                 to the 401st AFSB
                 During site visits to the Bagram and Kandahar RPATs, we identified weaknesses over
                 the security and handling of CIIs that if left unresolved could result in the compromise
                 of sensitive information.    These deficiencies were compounded by the ineffective
                 property accountability controls that we identified at the RPAT yards, which could result
                 in undetected theft of equipment. During the audit, we notified the 401st AFSB of our
                 observations so that 401st AFSB personnel could take immediate action to remediate the
                 security deficiency.


                 Double Barrier Protection Will Ensure CIIs Are Properly
                 Protected at the Bagram RPAT
                 The 401st AFSB did not protect CIIs with double barrier protection. Army Regulation
                 190-51, “Security of Unclassified Army Property (Sensitive and Nonsensitive),” states
                 that portable communications and electronics equipment and other high-value precision
                 equipment should, at a minimum, be provided double barrier protection when not in
                 use. Examples of double barrier protection include the following:

                          •	 a locked or guarded separate building or an enclosed van, trailer, or armored
                             vehicle protected by a perimeter fence,

                          •	 a locked steel cage within a secure storage structure,

                          •	 a locked, built-in container or a free-standing locked container within a secure
                             storage structure,

                          •	 securely affixing the item to an internal structure of a secure storage
                             structure, or

                          •	 securely affixing the item to a locked vehicle that is under continuous
                             surveillance or in a motor pool.

                 While touring the Bagram RPAT facilities on April 17, 2013, the audit team observed
                 that 30 storage boxes containing Communications-Electronics Command equipment
                 were not being secured in accordance with the aforementioned standards. Additionally,
                 the equipment was close to the outer walls of the facility and mere feet away from an
                 open freight door. The audit team opened two of the boxes and found that one box was




20 │ DODIG-2014-043
                                                                                                    Finding



full of radio receiver-transmitter sets with a unit cost of $8,471 per item. In the second
box, we found a radio set with a unit cost of $42,840. Both the radio receiver-transmitters
and radio set items were CIIs.


Management Actions Taken To Improve the Security of Sensitive Items
at Bagram
On April 26, 2013, we informed the Commander, 401st AFSB, that we had concerns that
CIIs at the Bagram RPAT yard were not being protected by double barrier protection.
On May 7, 2013, we returned to the Bagram RPAT yard and verified that the 401st AFSB
had moved lockable steel containers into the nonrolling stock warehouse and were
storing CIIs in those containers. We determined that the efforts taken by the 401st AFSB
ensured CIIs and other sensitive equipment were safeguarded in accordance with Army
Regulation 190-51. Specifically, by securing the CIIs in the locked containers within a
secure warehouse, the 401st AFSB provided double barrier protection to the items.
Therefore, we do not have any further recommendations.


Additional Procedures at the Kandahar RPAT Will Mitigate the
Risk That Sensitive Information Is Compromised
The 401st AFSB did not ensure that CIIs with hard drives and automation were wiped
before accepting the equipment from the unit. In addition to Army Regulation 735-5
requiring CIIs to be identified, accounted for, secured, segregated, or handled in a
special manner to ensure their safekeeping and integrity, 401st AFSB Standard Operating
Procedures provide detailed instructions that require CII equipment with hard drives
and automation to be wiped or zeroed by the unit before turning the equipment into
the RPAT. The internal guidance further states that if the items have not been properly
wiped, then the RPATs cannot accept the equipment.

However, personnel at the Kandahar RPAT accepted a Counter Radio-Controlled
Improvised Explosive Device Electronic Warfare Duke and four navigations systems
that had not been wiped. The Counter Radio-Controlled Improvised Explosive Device
Electronic Warfare Duke is a widely deployed, counter-improvised explosive device
system protecting our warfighters against roadside bombs. The Kandahar RPAT also
did not have adequate procedures in place for safeguarding the items that had not yet
been wiped. Instead, the items were de-installed from the vehicles and left unattended
while contractors, to include foreign national contractors, had direct access to
the equipment.




                                                                                          DODIG-2014-043 │ 21
Finding



                 Management Actions Taken To Improve the Security of Sensitive Items at
                 Kandahar
                 On May 3, 2013, we briefed the Commander of the 4th Battalion, 401st AFSB, that we
                 had observed sensitive equipment entering the Kandahar RPAT without being properly
                 wiped. We followed up with 401st AFSB officials on August 28, 2013, and determined
                 that the Commander of the 4th Battalion, 401st AFSB, had issued a formal order on
                 May 24, 2013, requiring a government representative or field service representative
                 to be present when units turn in electronic equipment and to verify that all electronic
                 equipment is wiped before accepting the equipment. The order also stated that the
                 Officers in Charge will ensure that the appropriate resources for wiping equipment
                 are on hand and that government representatives are properly trained on how to wipe
                 each piece of equipment. We determined that the efforts taken by the 401st AFSB
                 ensured that CII equipment with automation is safeguarded in accordance with Army
                 Regulation 735-5 and the 401st AFSB Standard Operating Procedures. Therefore, we do
                 not have any further recommendations.


                 Conclusion
                 The Army did not have effective procedures for processing and safeguarding retail
                 and wholesale equipment at the RPAT yards in Afghanistan. This occurred because
                 ASC, ACC-RI, and the 401st AFSB did not properly oversee contractor performance to
                 ensure property accountability was being adequately established and transferred at
                 the RPATs; ASC did not adequately resource the PHRHs that were overwhelmed with
                 property accountability responsibilities; and the 401st AFSB did not implement effective
                 controls over equipment at the RPAT yards. As a result, the Army reported losses of
                 $586.8 million in retail and wholesale equipment at the RPATs in Afghanistan from
                 May 2012 through May 2013. Included in these losses are weapons, weapons systems,
                 and other sensitive equipment. Until the Army implements effective procedures for
                 processing and safeguarding equipment at the RPAT yards, the RPAT environment will
                 remain conducive to property loss.


                 Management Comments on the Finding and
                 Our Response
                 Army Contracting Command-Rock Island Comments
                 The Executive Director, Army Contracting Command-Rock Island, provided five general
                 comments. Specifically, the Executive Director stated that there is only one FIRST
                 contractor performing work for the 401st AFSB. The Executive Director also stated




22 │ DODIG-2014-043
                                                                                                   Finding



that the CAR issued against the FIRST contractor in June 2012 was successfully closed
in October 2012. Further, the Executive Director stated that a CAR that was previously
issued to the FIRST contractor for finding a container with sensitive items that was not
properly secured was successfully closed in October 2013. Specifically, the Executive
Director stated they increased the frequency of random supervisory visits to the
RPAT yards. Next, the Executive Director explained that there was no correlation
between the cited level III CARs and the $150.3 million variance between the wholesale
equipment recorded in the Army War Reserve Deployment System and LMP. Finally,
the Executive Director stated that ACC-RI and DCMA Afghanistan-North maintain a close
operational relationship in resolving any critical concerns that may arise regarding
contract administration.


Our Response
We agree that there is one contractor for the FIRST contract, we refer to “contractors” as
multiple individuals who perform work for the FIRST contractor. We also acknowledge
that the June 2012 CAR was successfully closed and that the FIRST contractor increased
the frequency of random supervisory visits at the RPAT yards. However, we do not
state that the Level III CARs are directly correlated with the $150.3 million variance
found between Army War Reserve Deployment System and LMP. Instead, we highlight
the CARs which discuss the reconciliation rate between AWRDS and LMP as being less
than the 95 percent that the contract requires. We discovered, after performing our
review, that there was a reconciliation variance of $150.3 million at one time between
the two accountability systems. Thus, we were establishing that there is a systematic
issue with the reliability of the accountability systems and not that the CARs and
dollar variance were directly related.    Finally, while we acknowledge that Defense
DCMA and ACC-RI held weekly conferences to discuss operational concerns, we have
recommended further involvement from ACC-RI as the sheer quantity and quality
of CARs against this contractor are daunting.      Additionally, it is the responsibility
of the contracting officer to verify that the contractor is complying with contract
requirements. Despite repeated warnings from DCMA, the contracting officer did not
effectively address the FIRST contractor’s performance.




                                                                                         DODIG-2014-043 │ 23
Finding



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1
                 We recommend that the Commander, Army Materiel Command, revise the
                 Operation Enduring Freedom-Theater Property Book Office Standard Operating
                 Procedures to establish inventory requirements for wholesale equipment at
                 the Redistribution Property Assistance Team yard. The requirements should
                 implement regular and recurring inventories and should, at a minimum, require
                 inventories at the rotation of accountable officers.


                 Army Materiel Command Comments
                 The Executive Deputy, Army Materiel Command, responding for the Commander,
                 Army Materiel Command, agreed. The Executive Deputy stated they are considering
                 developing policy that will require regular and recurring inventories/assessments to
                 be performed at the RPAT yards in addition to conducting inventories at the rotation
                 of accountable officers.


                 Our Response
                 The response from the Executive Deputy, Army Materiel Command, partially addressed
                 the recommendation. The Army Materiel Command’s consideration of developing policy
                 does not meet the intent of our recommendation. Therefore, we request the Commander,
                 Army Materiel Command, provide additional comments to the recommendation by
                 April 4, 2014.


                 Recommendation 2
                 We recommend that the Commander, Army Sustainment Command:

                          a.	 Conduct a review of the 401st Army Field Support Brigade personnel
                             levels to determine whether Primary Hand Receipt Holders need
                             additional resources to fulfill their responsibilities of maintaining the
                             proper care, custody, security, and safekeeping of retail equipment on
                             their hand receipts.




24 │ DODIG-2014-043
                                                                                                Finding



Army Sustainment Command Comments
The Deputy Commander, Army Sustainment Command, responding for the Commander,
Army Sustainment Command, agreed. The Deputy Commander stated that ASC will
review the 401st AFSB personnel levels to ensure that the PHRHs have adequate resources
to perform their duties. The target date for completion is March 31, 2014.


Our Response
The response from the Deputy Commander, Army Sustainment Command addressed
all of the specifics of the recommendation. No further comments are required.

        b.	 Update the Quality Assurance Surveillance Plan in coordination with
           Army Contracting Command-Rock Island and 401st Army Field Support
           Brigade personnel to accurately measure whether the Integrated
           Logistics Support and Services contractor is meeting the performance
           metrics in the Performance Work Statement.


Army Sustainment Command Comments
The Deputy Commander, Army Sustainment Command, responding for the Commander,
Army Sustainment Command, agreed. The Deputy Commander stated that the ASC
will update the QASP to ensure it accurately measures the performance metrics in the
PWS. The target date for completion is March 31, 2014.


Our Response
The response from the Deputy Commander, Army Sustainment Command addressed all
of the specifics of the recommendation. No further comments are required.


Revised, Redirected, and Renumbered Recommendations
As a result of management comments from Army Materiel Command, we combined
draft recommendation 3.a and 3.b and redirected the revised recommendation to
the Army Sustainment Command and Army Contracting Command-Rock Island.
We renumbered draft recommendation 3.c to 3.b. Therefore, we request the
Commander, Army Sustainment Command and the Director, Army Contracting
Command-Rock Island, provide additional comments to the recommendation 3.a
by April 4, 2014.




                                                                                      DODIG-2014-043 │ 25
Finding



                 Recommendation 3
                 We recommend that the Commander, Army Sustainment Command in coordination
                 with the Director, Army Contracting Command-Rock Island:

                          a.	 Define the frequency of the cyclic inventories of retail equipment at
                            the Redistribution Property Assistance Team yards to be performed by
                            the Integrated Logistics Support and Services-2 contractor to maintain
                            100-percent accountability and visibility of retail equipment, as
                            required by the contract. Modify the contract to address the required
                            frequency of inventory, and verify that the required inventory frequency
                            is followed.

                          b.	 Establish controls to verify that the contracting officer is initiating
                            action on all Corrective Action Requests issued to the Field and
                            Installation Readiness Support Team contractor and, as appropriate,
                            initiate action to remedy identified performance deficiencies.


                 Army Contracting Command-Rock Island Comments
                 For recommendation 3.b (formerly recommendation 3.c.), the Executive Director, Army
                 Contracting Command-Rock Island, responding for the Director, Army Contracting
                 Command-Rock Island, agreed. The Executive Director stated controls are already
                 established and in place with continuous on-going direct communications with the
                 Defense Contract Management Agency Administrative Contracting Officer (DCMA ACO),
                 401st AFSB, and ASC. Further, the Executive Director stated the ILSS-2 Contracting
                 Officer reviews open corrective action reports/contract deficiency report with
                 in-country CORs, ASC, and the contractor on a regular scheduled teleconference and
                 takes appropriate actions, if necessary.


                 Our Response
                 The response from the Executive Director, Army Contracting Command-Rock Island,
                 addressed all of the specifics of the recommendation. No further comments are required.




26 │ DODIG-2014-043
                                                                                                 Finding



Recommendation 4
We recommend that the Commander, 401st Army Field Support Brigade:

         a.	 Determine whether the contracting officer’s representatives are
           completing and submitting their reports to the Army Sustainment
           Command each month and take administrative action if they are not
           fulfilling their duties.


401st Army Field Support Brigade Comments
The Commander, 401st Army Field Support Brigade, agreed. The Commander ensured the
following corrective measures have been implemented:

         •	 ASC provided assistance property teams to the 401st AFSB. ASC
           provided training, evaluation and assistance in property management to
           401st AFSB PHRHs.

         •	 ASC and the 401st AFSB S-4 conducted in-depth training on property
           accountability with battalion PHRHs.

         •	 Assigned Contracting Officer Representatives to the RPAT and reduced the
           PHRHs equipment amounts.

         •	 The 401st AFSB took corrective actions with PHRHs and RPAT personnel by
           conducting training on the proper handling of sensitive equipment and the
           use of visual identification on sensitive items.

         •	 Created and sent a Letter of Technical Direction to Honeywell Technology
           Solutions Inc. to establish teams to assist 401st AFSB PHRHs in the execution
           of inventory management and re-establishment of equipment accountability.

Our Response
Comments from the Commander, 401st Army Field Support Brigade did not address
the specifics of the recommendation.       Specifically, it did not address whether the
contracting officer’s representatives are completing and submitting their monthly
reports to the Army Sustainment Command. Therefore, we request additional comments
by April 4, 2014.




                                                                                       DODIG-2014-043 │ 27
Finding



                          b.	 Employ automatic identification technology for all retail equipment.

                 401st Army Field Support Brigade Comments
                 The Commander, 401st Army Field Support Brigade, agreed. The Commander stated that
                 PBUSE Automatic Identification Technology systems will be implemented and its use
                 verified during an ASC staff assistance visit in January 2014. The Commander also stated
                 that retraining will be offered if required.


                 Our Response
                 The response from the Commander, 401st Army Field Support Brigade addressed all of the
                 specifics of the recommendation. No further comments are required.

                          c.	 Implement monthly reviews of the work performed by Redistribution
                             Property Assistance Team personnel that are responsible for wholesale
                             property accountability to assess whether they are fulfilling their
                             responsibilities.


                 401st Army Field Support Brigade Comments
                 The Commander, 401st Army Field Support Brigade, agreed. The Commander ensured the
                 following corrective measures have been implemented:

                          •	 401st Army Field Support Brigade Wholesale Accountable Officer conducts
                             a monthly audit with the DCMA of all equipment down to the battalion level.

                          •	 The 401st Army Field Support Brigade has requested additional subject
                             matter experts (Wholesale Responsible Officers) through the DCMA and
                             401st Contract Management Office to be assigned as auditors for Wholesale
                             Managers at all 401st AFSB RPAT yards.

                          •	 The 401st AFSB created and then implemented a Letter of Technical Direction
                             for AC FIRST to conduct 100-percent daily scanning of all rolling stock and
                             nonrolling stock equipment. The Letter of Technical Direction ensures better
                             visibility of on-hand equipment and helps 401st AFSB personnel with the
                             locating of equipment.

                 Our Response
                 Comments from the Commander, 401st Army Field Support Brigade did not address the
                 specifics of the recommendation. Specifically, the Commander did not state whether
                 monthly reviews of the work performed by RPAT personnel’s are implemented. Therefore,
                 we request additional comments by April 4, 2014.


28 │ DODIG-2014-043
                                                                                               Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from March 2013 through November 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

We reviewed DoD and Army criteria to gain an understanding of the regulations
governing RPAT operations in Afghanistan.         Specifically, we reviewed the Federal
Acquisition Regulation, DoD Instructions, and applicable Army guidance. Additionally,
we reviewed applicable RPAT Standard Operating Procedures. We coordinated with
or interviewed military and civilian personnel from ASC, ACC-RI, Army Criminal
Investigations Command, DCMA, 401st AFSB, TACOM Life Cycle Management Command,
and the Communications-Electronics Command Life Cycle Management Command. We
also coordinated with ILSS and FIRST contractors.

We conducted site visits to the Bagram and Kandahar RPAT yards and observed the
RPAT process to determine whether procedures were in place to effectively process
equipment. While conducting the site visits, we also reviewed the procedures for
securing sensitive equipment to ensure the 401st AFSB was safeguarding items in
accordance with applicable Army regulations. We obtained a listing of the 401st AFSB
hand receipts to identify the total number and the value of the items for which
401st AFSB personnel were accountable. We reviewed the staffing of the RPATs to identify
vacancies at the 401st AFSB to determine whether there was sufficient Government
oversight. We obtained and analyzed the 401st AFSB FLIPL register, which outlined all
of the 401st AFSB’s open, closed, and canceled FLIPLs. Finally, we obtained and reviewed
all applicable contract documentation, including the contracts, PWSs, QASPs, and CARs
for the ILSS, ILSS-2, and FIRST contracts.

In April 2013, we obtained a listing of the equipment in the Army retail and wholesale
inventory systems at the Bagram and Kandahar airfields.             From the listing of
11,928 retail items, valued at $589.6 million, we statistically selected 166 nonrolling
stock items, totaling $2.9 million, and 60 rolling stock items, totaling $22.7 million, for
book-to-floor testing. From the listing of 6,108 wholesale items, valued at $3.8 billion,
we statistically selected 79 nonrolling stock items, totaling $70.7 million, and 60 rolling




                                                                                          DODIG-2014-043 │ 29
Appendixes



                 stock items, totaling $26.1 million, for book-to-floor testing. Using the items we selected
                 for our samples, we ensured that equipment recorded in the Army systems as being
                 present at the Bagram or Kandahar RPAT yards could be located at the applicable RPAT
                 (see Appendix C).

                 While physically locating items for our book-to-floor sample at the RPAT yards, the
                 audit team nonstatistically selected a sample of retail items for floor-to-book testing.
                 Specifically, from the retail items at the RPAT yards, we selected 138 nonrolling stock
                 items and 60 rolling stock items. We then determined whether the items we selected
                 from the RPAT yards for floor-to-book testing were accurately recorded in the PBUSE.

                 The audit team also nonstatistically selected a sample of wholesale items for floor-
                 to-book testing. Specifically, from the wholesale items at the RPAT yards, we selected
                 79 nonrolling stock items and 60 rolling stock items. We then determined whether
                 the wholesale items we selected from the RPAT yards for floor-to-book testing were
                 accurately recorded in LMP.


                 Use of Computer-Processed Data
                 We relied on computer-processed data from Theater Provided Equipment Planner,
                 PBUSE, the Army War Reserve Deployment System, LMP, and the Transportation
                 Coordinators’ Automated Information for Movement System to determine whether
                 RPAT contractors at Bagram and Kandahar Airfields maintained proper accountability
                 and visibility of wholesale assets for the 401st AFSB and proper accountability and
                 visibility of retail assets for ASC. The Theater Provided Equipment Planner, PBUSE,
                 the Army War Reserve Deployment System, LMP, and the Transportation Coordinators’
                 Automated Information for Movement System are used by the U.S. Army to maintain
                 accountability and visibility over wholesale and retail assets throughout the assets’
                 life cycles. To verify the reliability of the data, we tested documents provided by
                 Government and contractor employees by comparing those documents to what
                 was recorded in the systems.       From these procedures, we are confident that the
                 documentation in the systems was sufficiently reliable for the purpose of acquiring
                 wholesale and retail asset visibility and accountability documents for our analysis of
                 whether the Bagram and Kandahar RPATs in Afghanistan have effective procedures in
                 place to process equipment, to include preparation for shipment.




30 │ DODIG-2014-043
                                                                                           Appendixes



Use of Technical Assistance
Personnel from the Quantitative Methods Division assisted us in selecting a statistical
sample for testing rolling stock and nonrolling stock equipment at the Bagram and
Kandahar RPATs.


Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), Department
of Defense Inspector General (DoD IG), and the Army Audit Agency have issued
nine reports discussing RPAT operations and accountability of Government equipment.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted Army Audit Agency reports can be accessed at https://www.aaa.army.mil/.


GAO
GAO-13-185R, “Afghanistan Drawdown Preparations: DoD Decision Makers Need
Additional Analyses to Determine Costs and Benefits of Returning Excess Equipment,”
December 19, 2012

GAO-11-774, “Iraq Drawdown: Opportunities Exist to Improve Equipment Visibility,
Contractor Demobilization, and Clarity of Post-2011 DOD Role,” September 16, 2011

GAO-08-930, “Operation Iraqi Freedom: Actions Needed to Enhance DoD Planning for
Reposturing of U.S. Forces from Iraq,” September 10, 2008


DoD IG
DoD IG Report No. DODIG-2012-138, “Wholesale                Accountability   Procedures
Need Improvement for the Redistribution Property Assistance Team Operations,”
September 26, 2012

DoD IG Report No. DODIG-2012-071, “DoD’s Management of the Redistribution
Property Assistance Team Operations in Kuwait,” April 10, 2012


Army
Army Audit Agency Report A-2013-0056-MTE, “Retrograde Sort Process, Afghanistan,”
February 26, 2013




                                                                                      DODIG-2014-043 │ 31
Appendixes



                 Army Audit Agency Report A-2013-0048-MTE, “Materiel Management - Retrograde From
                 Southwest Asia,” February 1, 2013

                 Army Audit Agency Report A-2011-0077-ALL, “Follow-up Audit of Retrograde Operations
                 in Iraq Class VII Theater Provided Equipment,” April 12, 2011

                 Army Audit Agency Report A-2011-0063-ALL, “Redistribution Property Assistance
                 Teams,” February 14, 2011




32 │ DODIG-2014-043
                                                                                                         Appendixes




Appendix B
Excerpt of Items Reported as Lost on a Financial
Liability Investigation of Property Loss
Table B.1 provides an excerpt of missing items from just 1 of the 71 FLIPL investigations
that the 401st AFSB opened from May 2012 through May 2013.                       All the items in
Figure 6 are CIIs except for the Radio Global Positioning System Handheld. This single
FLIPL contained about $106.1 million in missing items.

Table B.1. Excerpt of Missing Items from a FLIPL*
                Missing Item                Number Missing         Unit Cost          Total Cost
 AN/VRC-104 Radio                                     177            $49,598         $8,778,846
 CROWS Armament System                                 26           $192,360         $5,001,360
 Digital Computer                                     285            $15,850         $4,517,250
 Driver's Vision System                               110            $35,000         $3,850,000
 AN/PRC-152 Radio                                     315             $6,000         $1,890,000
 Long Range Surveillance System                          4          $400,000         $1,600,000
 MK19 40mm Grenade Launcher                            81            $15,320         $1,240,920
 Integrated Directional Finder                           2          $375,000           $750,000
 AN/PRC-148 Radio                                      70             $8,062           $564,340
 Radio GPS Handheld                                    16            $26,000           $416,000
 81mm Mortar System                                      2          $121,855           $243,710
 Night Vision System                                     3           $75,705           $227,115
 M240 Machine Guns                                     28             $6,000           $168,000
 M224 60mm Mortar                                        3           $55,879           $167,637
 Sniper Kit, Visual                                      1          $130,316           $130,316
 Crypto Transfer Unit                                  44             $2,919           $128,436
 Drone (Raven B)                                         1          $100,000           $100,000
 120mm Towed Mortar                                      1           $99,813            $99,813
 .50 Caliber Machine Gun (M2)                            7            $8,493            $59,451
 M249 Machine Guns                                       6            $2,653            $15,918

*Some of the items in Table B.1 may have been found during the course of the FLIPL investigation.




                                                                                                    DODIG-2014-043 │ 33
Appendixes




                 Appendix C
                 Statistical Sample
                 With assistance from the Quantitative Methods Division, we developed and reviewed a
                 statistical sample of the retail and wholesale rolling and nonrolling stock equipment to
                 project the number and dollar value of equipment that was not accurately reflected in the
                 wholesale and retail accountability systems.


                 Population
                 The population consisted of 18,036 pieces of retail and wholesale equipment, valued at
                 $4.38 billion, listed in the wholesale and retail accountability systems in April 2013 at
                 the Kandahar and Bagram Airfields. The National Stock Number and Serial Number was
                 combined to identify a single piece of equipment. The equipment included rolling and
                 nonrolling stock.


                 Sample Plan
                 We used an attribute stratified sampling plan to review the retail and wholesale rolling
                 and nonrolling stock equipment. We stratified the population into eight strata. The
                 stratification was based on retail, wholesale, and stock type (rolling or nonrolling stock).
                 See Table C-1.

                 Table C-1. Sample Design for Book to Floor Equipment in Bagram and Kandahar
                                      Stratum Name      Stratum Sample Size      Stratum Population Size
                                  BAF NRS PBUSE                  94                        6,299
                                  KAF NRS PBUSE                  72                        4,854
                                                                166                       11,153
                      Retail      BAF RS PBUSE                   30                          157
                                  KAF RS PBUSE                   30                          618
                                                                 60                          775
                                   Retail Total                 226                       11,928




34 │ DODIG-2014-043
                                                                                              Appendixes



Table C-1. Sample Design for Book to Floor Equipment in Bagram and Kandahar (cont’d)

                  Stratum Name        Stratum Sample Size      Stratum Population Size
              BAF NRS AWRDS                      45                      3,012
              KAF NRS AWRDS                      34                      2,286
                                                 79                      5,298
 Wholesale    BAF RS AWRDS                       30                        338
              KAF RS AWRDS                       30                        472
                                                 60                        810
               Wholesale Total                139                        6,108
               Grand Total                    365                       18,036




Attribute Statistical Projections and Interpretation
The planned analysis included making projections of the number of errors in type. We
projected the results of the book-to-floor wholesale and retail sample for Bagram and
Kandahar using the stratified sampling design.

The results for these projections have been calculated at the 90-percent confidence level.

Based on the sample results, we project with 90-percent confidence, out of
18,036 wholesale and retail equipment, we are unable to locate between 5,749 and
7,657 pieces of equipment, with a point estimate of 6,703 (37.2 percent) at the Bagram
and Kandahar RPAT yards.

In addition, we projected the missing equipment by rolling and nonrolling stock on
these locations. For example, the following Table C-2 shows that for Bagram and
Kandahar retail nonrolling stock, we project with 90-percent confidence that we were
unable to locate between 3,669 and 5,205 pieces of equipment, with a point estimate
of 4,437 (39.8 percent).




                                                                                         DODIG-2014-043 │ 35
Appendixes



                  Table C-2. Estimation of Missing Equipment at Bagram and Kandahar RPATs
                                                                                                Estimation of Error
                                                    Stratum    Stratum              Error (Count)                 Error (%)
                                                    Sample    Population
                                  Stratum Name        Size       Size          LB        PE         UB     LB         PE       UB
                                BAF NRS PBUSE          94        6,299
                                KAF NRS PBUSE          72        4,854
                                                       166      11,153        3,669     4,437     5,205   32.9%    39.8%      46.7%
               Retail           BAF RS PBUSE           30          157
                                KAF RS - PBUSE         30          618
                                                       60          775         141        243       345   18.3%    31.4%      44.5%
                                  Retail Total         226      11,928
                                BAF NRS AWRDS          45        3,012
                                KAF NRS - AWRDS        34        2,286
                                                       79        5,298        1,457     2,012     2,568   27.5%    38.0%      48.5%
               Wholesale        BAF RS AWRDS           30          338
                                KAF RS - AWRDS         30          472
                                                       60          810              1      11        41    0.1%       1.4%     5.1%
                                  Wholesale Total      139       6,108
                                  Grand Total          365      18,036        5,749     6,703     7,657   31.9%    37.2%      42.5%


                 Variable Statistical Projections and Interpretation
                 Originally, the sample plan was designed for attribute projection. After getting the
                 sample results, based on professional judgment, the decision was made to do a variable
                 projection. The original sample design had a large sample size and the calculated
                 precision of the variable projection came out reasonable to make a variable projection.
                 The following table summarizes the projection results.

                 Table C-3. Variable Statistical Projections of Equipment That Was Missing at Bagram and
                 Kandahar RPATs
                                         Lower Bound          Point Estimate            Upper Bound         Population Total
                      Retail             $77,565,375          $ 116,544,149             $155,522,923          $589,553,835
                      Wholesale          $27,501,266           $40,838,513               $54,175,759        $3,790,466,675
                      Overall           $116,185,247          $157,382,662              $198,580,077        $4,380,020,510


                 Based on the sample results, we project with 90-percent confidence, we are unable to
                 locate wholesale and retail equipment valued between $116,185,247 and $198,580,077,
                 with a point estimate of $157,382,662 out of $4,380,020,510 at the Bagram and
                 Kandahar RPAT yards.


36 │ DODIG-2014-043
                             Management Comments




Management Comments
U.S. Army Materiel Command




                                       Revised and
                                       Redirected,
                                       page 25




                                   DODIG-2014-043 │ 37
Management Comments



                 U.S. Army Sustainment Command




38 │ DODIG-2014-043
                                         Management Comments



U.S. Army Sustainment Command (cont’d)




                                               DODIG-2014-043 │ 39
Management Comments



                 U.S. Army Contracting Command




40 │ DODIG-2014-043
                                            Management Comments



U.S. Army Contracting Command-Rock Island




                                                  DODIG-2014-043 │ 41
Management Comments



                 U.S. Army Contracting Command-Rock Island (cont’d)




42 │ DODIG-2014-043
                                              Management Comments



U.S. Army Contracting Command-Rock Island (cont’d)




                                                     DODIG-2014-043 │ 43
Management Comments



                 U.S. Army Contracting Command-Rock Island (cont’d)




44 │ DODIG-2014-043
                                              Management Comments



U.S. Army Contracting Command-Rock Island (cont’d)




                                                     DODIG-2014-043 │ 45
Management Comments



                 U.S. Army Contracting Command-Rock Island (cont’d)




46 │ DODIG-2014-043
                                              Management Comments



U.S. Army Contracting Command-Rock Island (cont’d)




                                                     DODIG-2014-043 │ 47
Management Comments



                 U.S. Army Contracting Command-Rock Island (cont’d)




                                                                      Revised and
                                                                      Redirected,
                                                                      page 26




                                                                      Revised and
                                                                      Redirected,
                                                                      page 26




                                                                      Renumbered,
                                                                      page 26




48 │ DODIG-2014-043
                                              Management Comments



U.S. Army Contracting Command-Rock Island (cont’d)




                                                     DODIG-2014-043 │ 49
Management Comments



                 401st Army Field Support Brigade




50 │ DODIG-2014-043
                                            Management Comments



401st Army Field Support Brigade (cont’d)




                                                  DODIG-2014-043 │ 51
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                      ACC-RI Army Contracting Command-Rock Island
                       AFSB Army Field Support Brigade
                        ASC Army Sustainment Command
                        CAR Corrective Action Request
                         CII Controlled Inventory Item
                        COR Contracting Officer’s Representative
                      DCMA Defense Contract Management Agency
                       FIRST Field and Installation Readiness Support Team
                       FLIPL Financial Liability Investigation of Property Loss
                        ILSS Integrated Logistics Support and Services
                        LMP Logistics Modernization Program
                      PBUSE Property Book Unit Supply Enhanced
                      PHRH Primary Hand Receipt Holder
                       PWS Performance Work Statement
                       QASP Quality Assurance Surveillance Plan
                       RPAT Redistribution Property Assistance Team




52 │ DODIG-2014-043
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
